-v

T

2 ft-.
}

IN THE

i

SUPREME COURT OF THE UNITED STATES

t

.

j

__ J

Robert Petty - Petitioner;
v.
■rr:

State of Indiana - Respondent;

PETITION FOR WRIT OF CERTIORARI

, ^----

■r

Attorney for Petitioner:

Robert Petty #106981
Petitioner -Appellant, pro se
Pendleton Correctional Facility
4490 W. Reformatory Road
Pendleton, IN 46064-9001

QUESTIONS PRESENTED

1. Whether the Indiana Courts erred denying Appellant was deprived
effective assistance of trial counsel during closing arguments and
sentencing violating the Fifth, Sixth and Fourteenth Amendments to
the United States Constitution?

2. Whether the Indiana Courts erred denying Appellant was deprived
of effective assistance of Appellate Counsel in violation of the
Fifth, Sixth, and Fourteenth Amendments to the United States
Constitution when Appellate Counsel failed to raise issues that are
significant and obvious from the face of the record that are clearly
stronger than the issues raised.

11

LIST OF PARTIES
1X1 All parties appear in the caption of the case on the cover page.
I I All parties do not appear in the caption of the case on the cover page. A list of all
parties to the proceeding in the court whose judgment is the subject of this petition is
as follows:

m

TABLE OF CONTENTS
Opinions Below.

1

Jurisdiction,

2

Constitutional and Statutory Provisions Involved,

3

Statement of the Case

4

Reasons for Granting the Writ,

9

Conclusion,

27
INDEX TO APPENDICES

Appendix A - Order Denying Post-Conviction Relief

Appendix B - Indiana Court of Appeals Opinion Affirming Appeal

Appendix C - Indiana Supreme Court Transfer Denial
-

iv

TABLE OF AUTHORITIES CITED
CASES:

PAGE NUMBER:

Ben-Yisrayl v. State, 738 N.E.2d 253, 260-61 (Ind. 2000), reh'g denied,
cert, denied, 534 U.S. 1164, 122 S. Ct. 1178, 152 L. Ed. 2d 120 (2002)...........
Bieghler v. State, 690 N.E.2d 188, 193-95, reh'g denied,
cert, denied, 525 U.S. 1021, 119 S. Ct. 550, 142 L. Ed. 2d 457 (1998)............
Conner v. State, 829 N.E.2d 21, 24 (Ind. 2005).................................................
Douglas v. State, 663 N.E.2d 1153 (Ind. 1996)...................................................
Duckworth v. Franzen, 780 F.2d 645. 652 (7th Cir. 1985)................................
Hammons v. State, 493 N.E.2d 1250 (Ind. 1986)...............................................
Hollen v. State, 761 N.E.2d 398. 402 (Ind. 2002)..............................................
Lewis v. State, 759 N.E.2d 1077, 2001 Ind. App.
LEXIS 1987 (Ind. Ct. App. 2001).......................................................................
Smith v. State, 780 N.E.2d 1214 1219 (Ind. Ct. App. 2003).............................
Strickland v. Washington, 466 t).S: 668, 80 L.Ed. 674, 104 S. Ct. 2054 (1984)
Townsend v. State, 498 N.E.2d 1198, 1201 (Ind. 1986).....................................
Watts v. State, 885 N.E.2d 1228, 1232 (Ind. 2008)...........................................
Wilson v. State, 697 N.E.2d 466, 474 (Ind. 1998).............................................
Wright v. State, 881 N.E.2d 1018, 1022 (Ind. Ct. App. 2008),
reh'g denied, trans. denied.................................................................................

STATUTES & RULES:
Indiana Code 35-40-13-2.
Indiana Code 35-41-2-2...
Indiana Code 35-41-2-5...
Indiana Code 35-42-1-1...
Indiana Code 35-44-3-4...
Indiana Code 35-44.1-2-2
Indiana Code 35-50-2-8...
Indiana Code 36-2-14-7...
Appellate Rule 7(B)........

19, 20
19
17, 26
9
10
16, 25,26
.
15,23
12, 14,21,22
.....
15,23
..... 9, 19, 27
.....
15,23
...... 17,25
.....
17,25
19

PAGE NUMBER:
12, 13,20
10
9
6
6
15,23
6
6
20

l

•>

OTHER:

PAGE NUMBER:
;

■.

J'.W. Cecil Turner, Kenny’s Outlihers of Criminal Law 28 (16th Edition, 1952)

v

10

i

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

The Petitioner respectfully prays that this Honorable Court issue a writ of certiorari to
review the judgment below.
OPINIONS BELOW
I I For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
and is-

to the petition

or,

I I reported at
I I has been designated for publication but is not yet reporter; or,
I I is unpublished.
The opinion of the United States district court appears at Appendix
and is-

to the petition

I I reported at________________________________________

or,

I I has been designated for publication but is not yet reporter; or,
I I is unpublished.
__ .w.:..

1X1 For cases from state courts:
The opinion of the highest state court to review the merits appears at Appendix .’Cto the
petition and isI I reported at________________

; or,

I I has been designated for publication but is not yet reporter; or,
1X1 is unpublished.
The opinion of the Indiana Court of Appeals appears at Appendix

to the petition and

1S-

I I reported at

or,

I 1 has been designated for publication but is not yet reporter; or,
1X1 is unpublished.

1
i.uaria t

JURISDICTION
I I For cases from federal courts:
The date on which the United States court of appeals decided my case was
A copy of that decision appears at Appendix___ .
I I No petition for rehearing was timely filed in my case.
I I A timely petition for rehearing was denied by the United States court of appeals on
the following date:_________
20__, and a copy of the order denying
rehearing appears at Appendix
I I An extension of time to file the petition for a writ of certiorari was granted to and
including
20__, in Application
20__, on
No.__, and a copy of the order granting said extension appears at Appendix
The jurisdiction of this Coiirf is invoked under 28 U.S.C. § 1254(1).
1X1 For cases from state courts:
The date on which the highest state court decided my case was DdMpgjT
A copy of that decision appears at Appendix C-

\ , 2020.

1X1 No petition for rehearing was timely filed in my case. Indiana prohibits rehearing in
Petition to Transfer to the Indiana Supreme Court.
1 1 A timely petition for rehearing was denied on the following date:_______________
20__, and a copy of the order denying rehearing appears at Appendix___ .
1 1 An extension of time,'to file the petition for a writ of certiorari was granted to and
including
20__, on
20__, in Application
No.__, and a copy of the order granting said extension appears at Appendix
The jurisdiction of this Court is invoked under 28 U.S.C. § 1257(a).

• fthe ■■

:: v h e IT

2

CONSTITUTIONAL PROVISIONS AND STATUTES

Constitutional Provisions
Amendment 5
No person shall be held to answer for a capital, or otherwise infamous crime, unless on a
presentment or indictment of a Grand Jury, except in cases arising in the land or naval forces, or
in the Militia, when in actual sendee in time of War or public danger; nor shall any person be
subject for the same offence to be twice put in jeopardy of life or limb; nor shall be compelled in
any criminal case to be a witness against himself, nor be deprived of life, liberty, or property,
without due process of law; nor shall private property be taken for public use, without just
compensation.

Sixth Amendment
In all criminal prosecutions, th^ accused shall enjoy the right to a speedy and public trial, by
an impartial jury of the Stateand-district wherein the crime shall have been committed, which
district shall have been previously ascertained by law, and to be informed of the nature and cause
of the accusation; to be confronted with the witnesses against him; to have compulsory process
for obtaining witnesses in his favor, and to have the Assistance of Counsel for his defense.

Amendment 14
Sec. 1. [Citizens of the United States.] All persons born or naturalized in the United States,
and subject to the jurisdiction thereof, are citizens of the United States and of the State wherein
they reside. No State shall make- or enforce any law which shall abridge the privileges or
immunities of citizens of the Untied'States; nor shall any State deprive any person of life, liberty,
br'property, without due process dflaw; nor deny to any person within its jurisdiction the equal
protection of the laws.

• udUi-rt..

; j'lvilvU'
'I .

3

STATEMENT OF THE CASE

On April 7, 2007, Appellant Robert Petty married Nina Keown and their daughter, B.P.
was bom one month later. On October 9, 2009, Petty and Keown divorced, but got back together
in July 2010. Keown was also in the process of moving back into Petty’s house located on 7168
East Plymouth Road, Lexington, Indiana. On August 7, 2010, Petty, Keown and B.P. drove to
Clarksville, Indiana for a day of shopping. Petty bought a video game at a game store, two pints
ST|>
of Jim Beam at a liquor store, and a ring for Keown at a pawn shop. They drove back to
i

Lexington around 4:30 p.m., dropped off B.P. at Petty’s father’s house, and drove to Scottsburg,
Indiana to attend the Hop Stock Music Festival (concert). Petty and Keown were together at the
beginning of the concert but later separated. At some point, Petty wanted to go home. He
walked back to his 4-Wheeler ohlV to find Keown standing next to it, talking to somebody on her
-T •

cell phone. Keown quickly hufig'iap, and when Petty asked who she was talking to, Keown
replied, “none of your fucking business.” This made Petty angry and they started to argue. They
were both intoxicated from the alcohol they had consumed at the concert. The pair set off
on the 4-Wheeler but stopped at the intersection of Plymouth Road and Highway 3, where they
got off and continued arguing for about two or three minutes before climbing back on the 4Wheeler and driving the rest ofitlie way home. Once they arrived at Petty’s residence, petty
snatched Keown’s cell phoneyiJshig her call history, Petty called the last number Keown had
dialed. It turned out that Keown had called a wrong number, and spoken to a man by the name
of Joe Barger. Barger told Petty that Keown had called him three times but Barger had refused
to talk to him or disclose his identity. In one of these phone calls, Petty threatened Barger and
told him that he would go over to his house to “whip” and “kill” him.

4

In the mean time, Keown,had gone to the Master bedroom and had passed out on the bed,
with her feet hanging over the foot of the bed. Since Petty did not get any information from
Barger, he went into the master bedroom to ask Keown the same question. Keown was
unconscious and did not therefore answer him. At this point Petty was extremely intoxicated
and angry and he got on top of her putting his hands on her throat and choked her. When Petty
saw she was not answering still, he left the house and drove back to Scottsburg, Indiana,
stopping at Walmart and Burger'King. Approximately one hour later, Petty drove back to his
house and found Keown wasislffl ’Mconscious but had now turned blue. Petty tried to resuscitate
Keown but she did not wake up: According to Petty, he then knew Keown had died because she
had urinated on herself. Petty decided that he did not want to go to jail, so he tried “to make it all
disappear.” Petty placed Keown’s body and her boots onto the back of his 4-Wheeler and drove
out into the countryside stopping near Saluda, Indiana. He then placed two phone calls from
Keown’s cell phone in an attempi'io divert suspicion from himself. After that, Petty removed
keown’s cell phone battery ahS fftfdw it in a field. Petty decided not to put Keown’s body there,
so he drove further stopping at Bethlehem Road in New Washington, Indiana. The road was on
a hill and was overlooking a heavily wooded area. Petty picked up Keown’s body, stepped over
a guardrail, and began carrying her body down the hill and into the woods. The hill was steep
and Petty being intoxicated quickly fell, dropping Keown’s body. Petty left Keown’s body
where it came to rest and then dime for a while before realizing Keown’s boots were still on the
1

•

^ "-j’t

floorboard of his 4-Wheeler so he’stopped and pitched them over the guardrail. At some point
Petty realized that he still had keown’s ring in his pocket, so he pitched it somewhere along the
route.

5

L, •

The next morning, he returned to the site where he had placed Keown’s body to retrieve
her clothes, because Petty feared, if found, it might assist the police in identifying him as
Keown’s killer. He then drove back home and burned Keown’s clothes alongside his bed clothes
in his backyard. On the same day, Petty called Keown’s mother and grandmother and asked
whether they had seen or heard from Keown. Petty told them that he and Keown had argued at
the concern the night before, and the last time he had seen her was when she walked away at the
intersection of Plymouth Road and Highway 3. Petty would continue to tell the same story to the
police for about three weeks.
On August 26, 2010, whilb Petty was in custody for an unrelated case in Clark County
.*

■

Jail, Petty asked to speak to the1 Sheriff but he was unavailable. Petty spoke to Deputy Sheriff,
Rachael Lee and confessed he killed Keown and then offered to aid the officers in Scott County
with Keown’s investigation. Thereafter, Deputy Lee called Scott County sheriffs Department
and arranged to meet officers near the site where Petty had placed Keown’s body. Keown’s
skeletal remains were found the next day.
On September 29, 20iO; the' State filed an Information charging Petty with Count 1,
Murder, I.C. 35^42-1-1; Count 2,''Removal of a Body from a Scene as a Class D felony, I.C. 362-14-7; and Count 3, Obstruction of Justice, as a Class D felony, I.C. 35-44-3-4. That same day,
the State amended the Information adding a fourth charge, Count 4, Habitual Offender, I.C. 3550-2-8.
Petty’s jury trial was conducted on January 29, 2013. Following the return of a guilty
verdict of Voluntary Manslaughter as a lesser included offense, Removal of a Body from a
Scene, and Obstruction of Justice;1 Petty admitted to the Habitual Offender charge. On April 17,
2013, the trial court held Petty’s sentencing hearing where Petty’s ex-Sunday School teacher was

6

improperly permitted to make an impact statement even though she was not connected or
involved with the case. The trial judge during sentencing made a statement of displeasure with
the jury’s verdict of involuntary manslaughter and then used elements of the crimes as
aggravating factors.
Appellant was tried and convicted under cause number72C01-1009-MR-00001 for Ct. 1,
Involuntary Manslaughter; Ct.2, Removal of a Body from Scene; Ct. 3, Obstruction of Justice
and Ct. 4, Habitual Offender. Appellant was sentenced on April 17, 2013 to Ct. 1, 20 years
enhanced by 30 years for Habitual Offender Count; Ct. 2, Removal of a Body 3 years
consecutive to Ct. 1 and Ct 3, Obstruction of Justice 3 years consecutive to Ct’s 1 & 2 for an
executed sentence of 56 years.
On February 22, 2019 Appellant filed a Petition for Post-Conviction Relief alleging
ineffective assistance of trial and appellate counsel. [PCR Appx. 18], On February 26, 2019 the
Judge recused himself. [PCR Appx. 2], On March 6, 2019 the State filed an Answer to
Appellant’s Post-Conviction Relief. [PCR Appx. 3]. On March 20, 2019 Special Judge Maria
Granger was appointed. [PCR Appx. 3. On May 1, 2019 Appellant filed Motion for Subpoenas
bf Brian Chastain, trial counsel, and Ryan Bower, appellate counsel which was granted on June
1,2019. [PCRAppx. 39]. On May 1, 2019 Appellant filed a Motion to Withdraw Appellate
record to trial Court for Use in Post-Conviction Proceedings and to Take Judicial Notice that was
denied on June 1, 2019 [PCR Appx. 4, 47].; Appellant’s Motion to Reconsider was denied on
July 3, 2019 [PCR Appx. 53], On October 10, 2019 Appellant filed a last Motion to Take
Judicial Notice of any and all record denied in Court [PCR Appx. 61], On December 5, 2019 an
evidentiary hearing was held ahdirial counsel, Brian Chastain testified concerning the
ineffective assistance of counsel iilaims against him, however, appellate counsel, Ryan Bower

7

*
{

\

did not appear so the hearing was continued until December 19, 2019. On December 19, 2019
appellate counsel, Ryan Bower, testified concerning the ineffective assistance of counsel claims
against him. Upon completing the evidentiary hearing each party was ordered to provide a
proposed finding of facts and conclusions of law within fifteen (15) days. During the December
5, 2019 evidentiary hearing the Appellant entered a copy of the trial transcripts into evidence to
:•V:/.
>,

support his claims.

On February 5, 2020, Special Judge Maria Granger denied Appellant’s Petition for PostConviction Relief and he filed his appeal in the Indiana Court of Appeals on February 20, 2020
that was affirmed on

^__ , 2020. The Indiana Supreme Court denied Transfer on
_, 2020. \ .

•v

t

8

REASONS FOR GRANTING THE WRIT
ARGUMENTS
ARGUMENT I
Appellant was denied effective assistance of trial counsel violating the Fifth, Sixth and
Fourteenth Amendments to the United States Constitution. Claims of ineffective assistance of
counsel are analyzed under the two-part test in Strickland v. Washington, 466 U.S. 668, 80 L.Ed.
674, 104 S.Ct. 2054 (1984). To prevail on an ineffective assistance claim, one must show both
deficient performance and resulting prejudice. A deficient performance is a performance that
falls below an objective Standard of reasonableness. See: Strickland, 466 U.S. at 687; Douglas v.
State, 663 N.E.2d 1153 (Ind.1996). Prejudice exist when a Appellant shows “there is reasonable
possibility that, but for Counsel’s unprofessional errors, the result of the proceeding would have
been different. A reasonable probability is a probability sufficient to undermine confidence in the
■ :sf}

outcomeStrickland, 466 U.S. at 694.
First, during Closing Arguments in this case trial counsel improperly told the jury
alcohol/intoxication “is not a factor or a circumstance that you can consider ahm, in your, in this
case.” (Tr. Vol. 8, p. 1763, L. 6). Trial counsel misinformed the jury in instructing them they
could not consider alcohol/intoklcation at all as a factor or a circumstance in this case. It is the
pi.

.

lisage of the term “in this case’'ftbaf caused prejudice to this Appellant, because
alcohol/intoxication was limited by IC. 35-41-2-5 only in determining the Appellant’s mental
state to form intent as follows:
35-41-2-5. Intoxication not a defense Applicability of IC 3541-3-5.
Intoxication is not a defense in a prosecution for an offense and
may not be taken into consideration in determining the existence of
a mental state that’is an element of the offense unless the defendant
meets the requirements of IC 35-41-3-5.
■i -UiU.i

9

HISTORY: ' -fvi:
P.L.210-1997,3/
Trial counsel should have pointed out to the jury that they could consider
alcohol/intoxication to prove recklessness over sudden heat found to exist by the jury, because
although voluntary intoxication is not a defense to a general intent-crime, it may be admitted to
refute the existence of a particular state of mind for a specific-intent crime. I.C. 35-41-2-2
defining recklessness states as follows:
Culpability'.
(c) A person engages in conduct recklessly if he engages in the
conduct in plain, conscious, and unjustifiable disregard of harm
that might result and the disregard involves a substantial
deviation from acceptable standards of conduct.
(Emphasis Added)
It is the factor of alcohol/intoxication in this case that led to a substantial deviation from
■ t?

i

acceptable standards of conduct'add trial counsel failed to stress this to the jury. Appellant
maintains that, “Intention cannot exist without foresight, but foresight can exist without
intention. For a man may foresee the possible or even probable consequences of his conduct and
yet not desire them to occur; none the less if he persists on his course he knowingly runs the risk
of bringing about the unwished result. To describe this state of mind the word ‘reckless’ is the
most appropriate.” J.W. Cecil Turner, Kenny’s Outliners of Criminal Law 28 (16th Edition,
1952). Alcohol/intoxication db'ei'Kave an effect on a person’s forethought prior to acting in a
certain manner. In Duckworth f. franzen, 780 F.2d 645. 652 (7th Cir. 1985), the court used as
an example of recklessness, the situation where a person deliberately chokes a person without
intention of killing that person, yet the victim dies. This is exactly what happened in this case,

10

yet counsel failed to properly present to the jury why the facts in this case supported recklessness
over sudden heat.
During the December 5^. 2019 evidentiary hearing trial counsel testified concerning
intoxication in this case that he first remembered it being an issue at trial but then later stated he
could not remember it being an issue at trial. Trial counsel’s testimony during post-conviction
relief was contradictory and did not explain a reasonable strategy for his failure to bring
intoxication to the jury’s attention. Trial counsel’s representation fell below the professional
norms as guaranteed by the Sixth Amendment to the United States Constitution.
In denying this claim, tKe' Post-Conviction Judge merely stated, “The Court finds the
statement of trial counsel during 'closing argument to be consistent with the jury instruction given
by the Court as Voluntary Manslaughter is a general intent crime.” (Order Denying Verified
Petition for Post-Conviction Relief, p. 5). The Post-Conviction Judge’s statement totally ignores
Appellant’s argument concerning recklessness rather than sudden heat in the jury coming to a
verdict.
Second, trial counsel w'as ineffective in representing Appellant during sentencing by
failing to object to an impropefwitness making a prejudicial impact statement from a previous
victim not involved in the current case later used by the judge as an aggravating factor. During
sentencing the State placed Pamela Murray Campbell on the stand to testify her experience of
being robbed at gunpoint by Appellant in a previous robbery not connect to the Voluntary
Manslaughter, Removal of a Body and Obstruction of Justice he was being sentenced for [Sent.
Vol. 1, Tr. 22-23]. Mrs. Campbell 'had been Appellant’s Bible School Teacher and testified how
violent he was and placed a gun to her head during her robbery. The State placed this witness
under the premise that she was making a victim impact statement for the victim in the current

11

case, however, Mrs. Campbell not affiliated with this case volunteered to testify stating, “I just
wanted to attest to his violent nature, this is not his first violent act” [Sent. Vol. 1, Tr. 41-42],
When the judge actually sentenced Appellant the judge stated as an aggravating factor, “Putting
a gun to the head of Bible School Teacher whose trying to do extra work...” [Sent. Vol 1, Tr.
296, L. 16-17],
Indiana Code 35-40-13-2, set forth the appointment of representative by court as follows:
If a victim is incompetent, deceased, or otherwise incapable of
designating another person to act in the victims place, the court
may appoint, upon request of the prosecuting attorney, a lawful
representative who is not a witness.
HISTORY:
P.L. 139-1999, T. ; Ms. Campbell is not a lawful representative not being involved in the current case and
testifying as a previous victim of a Violent crime merely to prejudice Appellant during sentencing
to be sentenced for a crime not connected to the one for sentencing. The Indiana Court of
Appeals has made clear that victim impact statements are irrelevant if offered concerning a
person who was not a victim of the crime at issue. Lewis v. State, 759 N.E.2d 1077, 2001 Ind.
App. LEXIS 1987 (Ind. Ct. App. 2001). The Lewis Court further stated concerning an illegal
witness as follows:

. iawful

The fact that Maxwell was murdered is an inappropriate
aggravating circumstance for several reasons. First, Maxwell was
not a "victim" of the crimes for which Lewis was being sentenced,
and therefore, Ms. Maxwell's testimony was irrelevant to the
appropriate sentence for his crimes against Williams. Indiana
Code section 35-38-1-8.5 provides that as part of the presentence
investigation, the probation officer "shall prepare a victim impact
statement for inclusion in the convicted person's presentence
report. The vict’iiu impact statement consists of information about
each victim and the consequences suffered by a victim or a victim's
family as a result of the crime." Ind. Code 35-38-1-8.5(c)
(emphasis added). Indiana Code section 35-38-1-7.1 requires the
12

^u'lv

court to consider "any oral or written statement made by a victim
of the crime" in determining what sentence to impose. Ind. Code
3 5-3 8-1-7.1(a)(7) (emphasis added). The crimes under
consideration herein are the battery and confinement of Williams.
Therefore, the "victim" of "the crime" is Williams. Ms. Maxwell's
testimony was irrelevant to these proceedings, and Lewis'
objection to her testimony should have been sustained.
Moreover, even if we could consider Ms. Maxwell's testimony as
properly given, she'did not testify to any particular impact beyond
that which one would expect a family member of a murder victim
to experience. Generally, the impact that a victim or a family
experiences as a result of a particular offense is accounted for in
the presumptive sentence. Simmons v. State, 746 N.E.2d 81,91
(Ind. Ct. App. 2001), trans. denied. Therefore, under normal
circumstances, the impact upon a victim or a victim's family is not
an aggravating circumstance for purposes of sentencing. Bacher v.
State, 686 N.E.2d 791, 801 (Ind. 1997). "In order to validly use
victim impact evidence to enhance a presumptive sentence, the
trial court must explain why the impact in the case at hand exceeds
that which is normally associated with the crime." Davenport v.
State, 689 N.E.2d;l226. 1233 (Ind. 1997), clarified on reh'g on
other grounds.
':!
Lewis id. at759N.E.2d 1085, 1086
Mrs. Campbell’s testimony was not related to the crime involved for sentencing, her
testimony was not beyond what every robbery victim is exposed to, it did not concern the victim
of this case and was designed merely to be an aggravating factor which should not have been
considered, but was by the judge.- During the December 5, 2019 evidentiary hearing trial counsel
/ "y -i' ,:i n‘-':

testified that he did not believe allowing Ms. Campbell to testify was prejudicial in any way
during sentencing. Trial counsel’s testimony did not counter the fact that her testimony violated
I.C. 35-40-13-2 and case precedent. During cross-examination of Mr. Chastain, the State entered
the Abstract of Judgment stating that her testimony was not listed as an aggravating circumstance
in this case. The State’s argument doesn’t counter her testimony violated statute and precedent
nor that it was improperly used?as an impact statement while considering aggravators and was
not an aggravator itself. If trial counsel had objected to her testimony as violating statute and
13

precedent she would not have been permitted to testify in this case. Trial counsel’s
representation fell below the professional norms as guaranteed by the Sixth Amendment to the
United States Constitution.
In denying this claim, the Post-Conviction Judge merely stated, “The Court finds that
trial counsel was not ineffective in not objecting to the statement made by Petty’s bible school
teacher as it was not a victim impact statement but rather pertained to the nature, character and
dangerousness of Petty and is appropriate for sentencing.” (Order Denying Verified Petition for
Post-Conviction Relief, p. 5). The Post-Conviction Judge’s reasoning is contrary to the Indiana
Court of Appeals precedence established in Lewis v. State, 759 N.E.2d 1077, 1085-86, 2001 Ind.
App. LEXIS 1987 (Ind. Ct. App. 2001), applying here because Pamela Murray Campbell was
not a "victim" of the crimes forWhich Petty was being sentenced, and therefore, Ms. Campbell's
testimony was irrelevant to the appropriate sentence for Appellant’s crimes.
■

■■

Third, trial counsel waPhSeffective by not objecting to the judge using elements of the
crimes for sentencing as aggravating factors to enhance sentences and order them to be served
consecutively.
During sentencing the judge in justifying the sentence he was giving for Count 2,
Removal of a Body, stated:
On Count II it Wilt be a total of 3 years none of that is suspended,
with 3 years to be. executed and Count II of course was removal of
a body of the scdrie’a class D felony and that will be run
consecutive and of course it was a separate act and not only was it
a separate act but and it is a violation of the law because of the
harm that can result by removing a body from the scene and that is
the destruction of evidence and in this case clearly it did cause
destruction of evidence.. [Sent. Vol. 2, Tr. 298, L. 3-14]

14

Appellant maintains that the judge in stating the above did not make proper aggravating
factors for removal of a body, .but did in fact use the elements for Obstruction of Justice as
Indiana Code states:
35-44.1-2-2. Obstruction of justice.
(3) alters, damages, or removes any record, document, or
thing, with intent to prevent it from being produced or used as
evidence in any official proceeding or investigation;
Appellant pointed out that the Indiana Supreme Court has made clear to enhance his
sentence violated the principle' tHkf a fact "which comprises a material element of a crime may
not also constitute an aggravating circumstance to support an enhanced sentence." Townsend v.
State, 498 N.E.2d 1198, 1201 (Ind. 1986); Smith v. State, 780 N.E.2d 1214, 1219 (Ind. Ct. App.
2003) (citing Stone v. State, 727 N.E.2d 33, 37 (Ind. Ct. App. 2000)), trans. denied, 792 N.E.2d
41 (Ind. 2003).
Further, if one or more aggravating circumstances cited by the trial court are invalid, the
court must decide whether the feffiaining circumstance or circumstances are sufficient to support
the sentence imposed. Hollen v. State, 761 N.E.2d 398, 402 (Ind. 2002). In this case the judge
allowed an improper victim impact witness citing her testimony as aggravating and the judge
then cited elements of Obstruction of Justice to sentence Appellant for Removal of a Body
rending his sentence invalid and requiring correction. During the December 5, 2019 evidentiary
hearing trial counsel testified hcfoould not remember what the judge said during sentencing but
would defer to the record as beiftjJ' Accurate. The record in this case establishes that elements of a
crime were used as an aggravator that should not have been used. Trial counsel’s representation
fell below the professional norms as guaranteed by the Sixth Amendment to the United States
Constitution.

xrciju..

15

In denying this claim, the Post-Conviction Judge merely stated, “The Court finds that
trial counsel was not ineffective during sentencing as the trial judge considered aggravating
factors that were proper to be considered during Petty’s sentencing. Also, the Court finds that
the trial judge did not use elements of an offense as aggravating factors for sentencing. (Order
Denying Verified Petition for Post-Conviction Relief, p. 5). Appellant maintains that the PostConviction Judge erred in ruling the trial judge in stating the above did not make proper
aggravating factors for removal of a body, but did in fact use the elements for Obstruction of
Justice.

,e c!*:: .
Fourth, trial counsel was'ineffective when he failed to object when the judge expressed

displeasure with the jury’s verdict considering sudden heat and then totally ignoring sudden heat
as a mitigating factor during sentencing.
During sentencing the judge stated as follows:
I have to agree with everyone that this is a tragedy we all have
assumptions about this case and what happened because of the
things that you have been convicted of doing and in fact when you
talk with the police each time your story was somewhat different
every time, sorhStimes much different and so I don’t know if you
in fact have fabricated all of the circumstances that might make it
look as if this was all done in sudden heat. I don’t know, I just am
not sure about any of those things. The jury was left with a
difficult decision and the way they resolved the decision is what
determines what I’ll sentence you on today and so my role in this
of course is limited some what by what the statute say.
[Sent. Vol. 2, Tr. 295, L. 6-21]

Appellant maintains hisfckse is similar to Hammons v. State, 493 N.E.2d 1250 (Ind.
1986). Hammons was tried for hiiirder, but found guilty by jury for the lesser included offense of
voluntary manslaughter. During sentencing, the trial court repeatedly declared the error of the
jury verdict, and that Hammons had in fact committed murder. The trial court imposed the

16

maximum penalty for manslaughter. The Indiana supreme Court reversed, holding the trial
court's sentencing was not merely an act of skepticism with the jury verdict, but was more like an
act of compensation to make up for the jury verdict, which was tantamount to sentencing the
defendant for the crime for which be was acquitted. Id. at 1253. The judge in Appellant’s case
simply began sentencing with the declaration of 50 years for Count 1, Voluntary Manslaughter
and Count 4, Habitual Offender; the maximum for each. In light of the judge’s comments above
it is painfully clear he was sentencing this Appellant as an “act of compensation to make up for
the jury verdict, which was tantamount to sentencing the defendant for the crime for which he
was acquitted.” Id. During the judge’s discussion of mitigating factors he never mentioned
once sudden heat as a mitigatihg'factor for sentencing.
•

«U .

"

Appellant points out that Indiana jurisprudence teaches that voluntary manslaughter is an
inherently lesser included offense of murder. See Watts v. State, 885 N.E.2d 1228, 1232 (Ind.
2008). This is not a typical example of a lesser included offense in that what distinguishes
voluntary manslaughter from murder is the existence of sudden heat, which is not an element of
murder, but rather "a mitigating'factor in conduct that would otherwise be murder."
Emphasis Added, Wilson v. Stai'e; 697 N.E.2d 466, 474 (Ind. 1998) (quoting Estes v. State, 451
N.E.2d 313, 314 (Ind. 1983)). "Sudden heat occurs when a defendant is provoked by anger, rage,
resentment, or terror, to a degree sufficient to obscure the reason of an ordinary person, prevent
deliberation and premeditation, and render the defendant incapable of cool reflection." Conner v.
State, 829 N.E.2d 21, 24 (Ind. 2005), like in this Appellant’s case. Thus, an instruction on
voluntary manslaughter as a le^sel4included offense to a murder charge is warranted only if the
evidence reflects a serious evidentiary dispute regarding the presence of sudden heat. Watts, 885
N.E.2d at 1232. In Appellant cash the evidence reflected a serious evidentiary dispute regarding

17

the presence of sudden heat found by the jury in finding him guilty of the lesser included offense
of Voluntary Manslaughter. The judge questioned the validity of this verdict and sentenced
Appellant without the benefit of sudden heat as a significant mitigating factor. During the
December 5, 2019 evidentiary hearing trial counsel testified he did not believe the judge’s
comments were improper and he had no idea if the judge was intending to sentence this
Appellant for the crime he was acquitted on. An effective trial counsel would be aware of these
■::

; - .,er;‘
- .

. , ..

i

7

.

issues during sentencing however Mr. Chastain fell short.
Trial Counsel was ineffective by failing to object to the above errors that would have
changed the outcome of this sentencing. Trial counsel must be found to be ineffective with his
performance falling below the professional norm and the conviction and sentence in this case
vacated and remanded for a new trial and/or re-sentencing and for all other relief deemed proper
by law.

- ■ acuc,
In denying this claim, tlibPost-Conviction Judge merely stated, “The Court does not find

ineffective assistance of counsel for not raising an objection to the trial court’s explanation of the
jury’s verdict in which Petty characterized as an expression of displeasure.” (Order Denying
Verified Petition for Post-Conviction Relief, p. 6). The judge questioned the validity of this
verdict and sentenced Appellant Without the benefit of sudden heat as a significant mitigating
factor. During the December 5, 2019 evidentiary hearing trial counsel testified he did not believe
the judge’s comments were improper and he had no idea if the judge was intending to sentence
this Appellant for the crime he was acquitted on. An effective trial counsel would be aware of
these issues during sentencing however Mr. Chastain fell short. The Post-Conviction Judge
erred in not finding trial counsel ineffective for this claim.

18

The Post-Conviction Judge erred in denying Trial counsel was not ineffective with his
W •

performance falling below the standards expected in his profession and under the Sixth
Amendment right to effective counsel in the United States Constitution and therefore this case
must be reversed and remanded for a new trial.

ARGUMENT II
Appellant was deprived of effective assistance of Appellate Counsel in violation of the
Fifth, Sixth, and Fourteenth Amendments to the United States Constitution and Article One,
Sections Twelve and Thirteen of the Indiana Constitution when Appellate Counsel failed to raise
issues that are significant and obvious from the face of the record that are clearly stronger than
the issues raised.
The standard by which claims of ineffective assistance of appellate counsel are reviewed
is the same standard applicable td! claims of trial counsel ineffectiveness under Strickland, Id.
Wright v. State, 881 N.E.2d 1018,' 1022 (Ind. Ct. App. 2008), reh'g denied, trans. denied. In
Bieghler, our supreme court identified three categories of appellate counsel ineffectiveness
claims, including: (1) denial of access to an appeal; (2) waiver of issues; and (3) failure to
present issues well. Bieghler v. State, 690 N.E.2d 188, 193-95, reh'g denied, cert, denied, 525
U.S. 1021, 119 S. Ct. 550, 142 lUEd. 2d 457 (1998). In evaluating these claims, the courts use
the following two part test: (f)'whe'ilier the unraised issues are significant and obvious from the
face of the record; and (2) whether the unraised issues are clearly stronger than the raised issues.
Bieghler, 690 N.E.2d at 194. Otherwise stated, to prevail on a claim of ineffective assistance of
appellate counsel, a defendant must show from the information available in the trial record or
otherwise known to appellate counsel that appellate counsel failed to present a significant and
■ V.-i

obvious issue and that this failure cannot be explained by any reasonable strategy. Ben-Yisrayl v.
19

State, 738 N.E.2d 253, 260-61 (Ind. 2000), reh'g denied, cert, denied, 534 U.S. 1164, 122 S. Ct.
1178, 152 L. Ed. 2d 120 (2002).

,•

First, appellant counsel merely raised sentencing under Appellate Rule 7(B) for the court
to determine if the sentence was inappropriate in light of the nature of the offense and the
character of the offender. Appellant counsel was ineffective not raising issues significant and
clearly on the record and stronger than the issue raised.
Appellate counsel failed $5 raise an improper witness made a prejudicial impact statement
from a previous victim not involved in the current case later used by the judge as an aggravating
factor. During sentencing the Stkte placed Pamela Murray Campbell on the stand to testify her
experience of being robbed at gunpoint by Appellant in a previous robbery not connect to the
voluntary manslaughter, Removal of a Body and Obstruction of Justice he was being sentenced
for [Sent. Vol. 1, Tr. 22-23], Mrs. Campbell had been Appellant’s Bible School Teacher and
testified how violent he was and'placed a gun to her head during her robbery. The State placed
this witness under the premise* that she was making a victim impact statement for the victim in
the current case, however, Mrs. Campbell not affiliated with this case volunteered to testify
stating, “I just wanted to attest to his violent nature, this is not his first violent act” [Sent. Vol. 1,
Tr. 41-42]. When the judge actually sentenced Appellant the judge stated as an aggravating
factor, “Putting a gun to the head of Bible School Teacher whose trying to do extra work...”
[Sent. Vol 1, Tr. 296, L. 16-17]. ' ■
Indiana Code 35-40-13-2, set forth the appointment of representative by court as follows:
If a victim is incompetent, deceased, or otherwise incapable of
designating another person to act in the victims place, the court
may appoint, upon request of the prosecuting attorney, a lawful
representative who is not a witness.

20

HISTORY:
P.L. 139-1999,1.
Ms. Campbell is not a lawful representative not being involved in the current case and
testifying as a previous victim of a violent crime merely to prejudice Appellant during sentencing
to be sentenced for a crime not connected to the one for sentencing. The Indiana Court of
Appeals has made clear that victim impact statements are irrelevant if offered concerning a
person who was not a victim of the crime at issue. Lewis v. State, 759 N.E.2d 1077, 2001 Ind.
App. LEXIS 1987 (Ind. Ct. App. 2001). The Lewis Court further stated concerning an illegal
witnes as follows:

: U \\

The fact that' ' Maxwell was murdered is an inappropriate
aggravating circumstance for several reasons. First, Maxwell was
not a "victim" of the crimes for which Lewis was being sentenced,
and therefore, Ms. Maxwell's testimony was irrelevant to the
appropriate sentence for his crimes against Williams. Indiana
Code section 35-38-1-8.5 provides that as part of the presentence
investigation, the probation officer "shall prepare a victim impact
statement for inclusion in the convicted person's presentence
report. The victim' impact statement consists of information about
each victim and (he consequences suffered by a victim or a victim's
family as a result of the crime." Ind. Code 35-38-1-8.5(c)
(emphasis added). Indiana Code section 35-38-1-7.1 requires the
court to consider "any oral or written statement made by a victim
of the crime" in determining what sentence to impose. Ind. Code
35-38-1-7.1(a)(7) (emphasis added). The crimes under
consideration herein are the battery and confinement of Williams.
Therefore, the "victim" of "the crime" is Williams. Ms. Maxwell's
testimony was irrelevant to these proceedings, and Lewis'
objection to her testimony should have been sustained.
Moreover, even if we could consider Ms. Maxwell's testimony as
properly given, she did not testify to any particular impact beyond
that which one would expect a family member of a murder victim
to experience. Generally, the impact that a victim or a family
experiences as a result of a particular offense is accounted for in
the presumptive sentence. Simmons v. State, 746 N.E.2d 81,91
(Ind. Ct. App. 2001), trans. denied. Therefore, under normal
circumstances, the impact upon a victim or a victim's family is not
an aggravating circumstance for purposes of sentencing. Bacher v.
21

-;

State, 686 N.E.2d 791, 801 (Ind. 1997). "In order to validly use
victim impact evidence to enhance a presumptive sentence, the
trial court must explain why the impact in the case at hand exceeds
that which is normally associated with the crime." Davenport v.
State, 689 N.E.2d 1226, 1233 (Ind. 1997), clarified on reh'g on
other grounds.
Lewis id. ai759 N.E.2d 1085, 1086
Mrs. Campbell’s testimony was not related to the crime involved for sentencing, her
testimony was not beyond what every robbery victim is exposed to, it did not concern the victim
of this case and was designed merely to be an aggravating factor which should not have been
considered, but was by the judge. During the December 5, 2019 evidentiary hearing appellate
counsel testified he was aware that her testimony was improper and prejudicial. He further
stated he was aware of Lewis v. Sttite, 759 N.E.2d 1077, 2001 Ind. App. LEXIS 1987 (Ind. Ct.
App. 2001) that clearly prohibited'her testimony, yet could not explain why he failed to raise this
issue on direct appeal. Appellate counsel’s representation fell below the professional norms as
guaranteed by the Sixth Amendment to the United States Constitution.
In denying this claim, the Post-Conviction Judge merely stated, “The Court finds that
appellate counsel was not ineffective in raising issues on appeal.” (Order Denying Verified
Petition for Post-Conviction Relief,- p. 6). The Post-Conviction Judge’s reasoning is contrary to
the Indiana Court of Appeals precedence established in Lewis v. State, 759 N.E.2d 1077, 108586, 2001 Ind. App. LEXIS 1987 (Ind. Ct. App. 2001), applying here because Pamela Murray
Campbell was not a "victim" of the crimes for which Petty was being sentenced, and therefore,
Ms. Campbell's testimony was irrelevant to the appropriate sentence for Appellant’s crimes.
Secondly, appellate counsel was ineffective by not raising the judge using elements of
the crimes for seiitencing as agjgfilating factors to enhance sentences and order them to be
served consecutively.

: ■. C5

22

During sentencing the judge in justifying the sentence he was giving for Count 2,
Removal of a Body, stated:
On Count II it will be a total of 3 years none of that is suspended,
with 3 years to be executed and Count II of course was removal of
a body of the scene a class D felony and that will be run
consecutive and, of course it was a separate act and not only was it
a separate act but and it is a violation of the law because of the
harm that can result by removing a body from the scene and that is
the destruction of evidence and in this case clearly it did cause
destruction of evidence.. [Sent. Vol. 2, Tr. 298, L. 3-14]
Appellant maintains that the judge in stating the above did not make proper aggravating
factors for removal of a body, but did in fact use the elements for Obstruction of Justice as
Indiana Code states:
i, . >

35-44.1-2-2. Obstruction of justice.
(3) alters,*1 ia^fflages, or removes any record, document, or
thing, with intetit'to prevent it from being produced or used as
evidence in any official proceeding or investigation;
Appellant points out appellate counsel had available that the Indiana Supreme Court has
made clear to enhance his sentence violated the principle that a fact "which comprises a material
element of a crime may not also constitute an aggravating circumstance to support an enhanced
sentence." Townsend v. State,

E.2d 1198, 1201 (Ind. 1986); Smith v. State, 780N.E.2d

1214, 1219 (Ind. Ct. App. 2003f (Biting Stone v. State, 727 N.E.2d 33, 37 (Ind. Ct. App. 2000)),
.■■'tn'-lV

trans. denied, 792N.E.2d41 (Ind.'2003).
Further, if one or more aggravating circumstances cited by the trial court are invalid, the
court must decide whether the remaining circumstance or circumstances are sufficient to support
the sentence imposed. Hollen v. 'State, 761 N.E.2d 398, 402 (Ind. 2002). In this case the judge
allowed an improper victim impgfet-witness citing her testimony as aggravating and the judge
f | ’ ’■

-f

then cited elements of Obstruction: of Justice to sentence Appellant for Removal of a Body
23

' .

pending his sentence invalid and reguiring correction. During the December 5, 2019 evidentiary
hearing appellate counsel testified he agreed using elements of the crime as an aggravator is
improper but did not believe an objection was entered by trial counsel. His testimony ended with
this could have been a possible issue but could not explain why he did not raise it.
Appellate Counsel was ineffective by failing to raise the above errors that would have
changed the outcome of the appeal. Appellate counsel’s representation fell below the
professional norms as guaranteed,% the Sixth Amendment to the United States Constitution.
In denying this claim, the Post-Conviction Judge merely stated, “The Court finds that
appelate counsel was not ineffective by not raising an issue regarding the judge using elements
of the instant offense as aggravating factors to enhance sentences and order they to be served
consecutively. (Order Denying Verified Petition for Post-Conviction Relief, p. 6). Appellant
maintains that the Post-ConvictlfcafJudge erred in ruling appellant counsel was not ineffective by
failing to raise this issue becatUe'tlie trial judge in stating the above did not make proper
aggravating factors for removal of a body, but did in fact use the elements for Obstruction of
Justice.
Third, appellate counsel was ineffective when he failed to raise on appeal that the judge
expressed displeasure with the jury’s verdict considering sudden heat and then totally ignoring
sudden heat as a mitigating factor during sentencing.
During sentencing the jiidgd stated as follows:
I have to agree with everyone that this is a tragedy we all have
assumptions about this case and what happened because of the
things that you have been convicted of doing and in fact when you
talk with the police each time your story was somewhat different
every time, sometimes much different and so I don’t know if you
in fact have fabricated all of the circumstances that might make it
look as if this was 'aill done in sudden heat. I don’t know, I just am
not sure about any of those things. The jury was left with a
V; .vbrdi..-

24

difficult decision and the way they resolved the decision is what
determines what Ell sentence you on today and so my role in this
of course is limited some what by what the statute say.
[Sent. Vol. 2, Tr. 295, L. 6-21]
Appellant maintains his case is similar to Hammons v. State, 493 N.E.2d 1250 (Ind.
1986). Hammons was tried for murder, but found guilty by jury for the lesser included offense of
voluntary manslaughter. During sentencing, the trial court repeatedly declared the error of the
jury verdict, and that Hammons had in fact committed murder. The trial court imposed the
Vila's-:

maximum penalty for manslaughter. The Indiana supreme Court reversed, holding the trial
ilC\!

court’s sentencing was not merely an act of skepticism with the jury verdict, but was more like an
act of compensation to make up for the jury verdict, which was tantamount to sentencing the
defendant for the crime for which he was acquitted. Id. at 1253. The judge in Appellant’s case
simply began sentencing with the declaration of 50 years for Count 1, Voluntary Manslaughter
and Count 4, Habitual Offender; the maximum for each. In light of the judge’s comments above
it is painfully clear he was senfehcing this Appellant as an “act of compensation to make up for
the jury verdict, which was tantamount to sentencing the defendant for the crime for which he
was acquitted.” Id. During the judge’s discussion of mitigating factors he never mentioned
once sudden heat as a mitigating factor for sentencing.
Appellant points out that Indiana jurisprudence teaches that voluntary manslaughter is an
inherently lesser included offense of murder. See Watts v. State, 885 N.E.2d 1228, 1232 (Ind.
2008). This is not a typical example of a lesser included offense in that what distinguishes
voluntary manslaughter from rhhrder is the existence of sudden heat, which is not an element of
murder, but rather "a mitigating factor in conduct that would otherwise be murder.”
Emphasis Added, Wilson v. State, 697 N.E.2d 466, 474 (Ind. 1998) (quoting Estes v. State, 451
N.E.2d 313,314 (Ind. 1983)). "Sudden heat occurs when a defendant is provoked by anger, rage,
25

resentment, or terror, to a degree sufficient to obscure the reason of an ordinary person, prevent
deliberation and premeditation, arid render the defendant incapable of cool reflection." Conner v.
State, 829 N.E.2d 21, 24 (Ind. 2005), like in this Appellant’s case. Thus, an instruction on
voluntary manslaughter as a lesser included offense to a murder charge is warranted only if the
evidence reflects a serious evidentiary dispute regarding the presence of sudden heat. Watts, 885
N.E.2d at 1232. In Appellant case the evidence reflected a serious evidentiary dispute regarding
the presence of sudden heat found by the jury in finding him guilty of the lesser included offense
of Voluntary Manslaughter. The judge questioned the validity of this verdict and sentenced
Appellant without the benefit ofs ridden heat as a significant mitigating factor. During the
December 5, 2019 evidentiary hearing appellate counsel testified he did not believe the judge’s
comments were improper even though he testified he was aware that Hammons v. State, 493
N.E.2d 1250 (Ind. 1986) prohibited the judge’s comments. Appellate counsel’s testimony does
not explain his failure to raise this issue since he admittedly knew precedent prohibited it.
.■ x. is?;.. -.

In denying this claim, the Post-Conviction Judge merely stated, “The Court does not find
ineffective assistance of appellhnfcounsel for not raising an objection to the trial court’s
explanation of the jury’s verdict iri which Petty characterized as an expression of displeasure.”
(Order Denying Verified Petition for Post-Conviction Relief, p. 6). This statement is obviously a
cut & paste from trial counsel ineffectiveness above because it otherwise makes no sense
concerning appellant counsel herein. The trial judge questioned the validity of this verdict and
sentenced Appellant without tb£''benefit of sudden heat as a significant mitigating factor. During
;

■ ifCi ■■■ ■■'

the December 5, 2019 evidentiary bearing trial counsel testified he did not believe the judge’s
comments were improper and he had no idea if the judge was intending to sentence this
Appellant for the crime he was acquitted on. An effective trial counsel would be aware of these

26

issues during sentencing however Mr. Chastain fell short. The Post-Conviction Judge erred in
not finding appellant counsel ineffective for not raising this issue on direct appeal.
Appellate Counsel was ineffective by failing to raise to the above errors that would have
changed the outcome of sentencing on appeal. Appellate counsel must be found to be ineffective
with his performance falling below the professional norm and the sentence in this case vacated
and remanded for re-sentencing and for all other relief deemed proper by law.

CONCLUSION
WHEREFORE, Appellant has proven his trial and appellant counsels were ineffective
and collectively, counsel’s errors “have had a pervasive effect on the inferences to be drawn
■■

from the evidence, altering the entire evidentiary picture” Strickland, 466 U.S. at 698-699,
. c!ov.
changing the outcome of his trial and sentencing and he prays this Court will find the Indiana
Courts erred herein and grant certiorari then remanding for a new trial and for any and all other
just relief this Court deems necessary.

Executed on:

W. 20'ZO,
Robert Petty
Petitioner / pro se

;1

27

NO.:

IN THE

SUPREME COURT OF THE UNITED STATES

Robert Petty - Petitioner;
v.
State of Indiana - Respondent;
ON PETITION FOR WRIT OF CERTIORARI TO
UNITED STATES SUPREME COURT

APPENDIX OF PETITIONER

Attorney for Petitioner:

Robert Petty #106981
Petitioner -Appellant, pro se
Pendleton Correctional Facility
4490 W. Reformatory Road
Pendleton, IN 46064-9001

